CERTIFICATE OF SERVICE
No. TBD
Leonard Thurman
Petitioner,
v.
Medical Transportation Management, Inc.
Respondent.
\

STATE OF MASSACHUSETTS ) .
COUNTY OF NORFOLK
) SS.:
Being duly sworn, I depose and say under penalty of perjury:
1. That I am over the age of 18 years and am not a party to this action. I am an employee of
the Supreme Court Press, the preparer of the document, with mailing address at 1089 Commonwealth
Avenue, Suite 283, Boston, MA 02215.
2. On the undersigned date, I served the parties in the above captioned matter with the
Leonard Thurman Petition for Writ of Certiorari, by mailing one (1) true and correct copy of
the same by Fedex 2-Day, prepaid for delivery to the following address.
Jason B. Purvis
Purvis & Co. PLLC
229 Debuys Road
Gulfport, MS 39507
(228) 206-7174
jpurvis@purviscolaw.com
Counsel for Medical Transportation
Management, Inc.
.
\

August 5, 2021
SCP Tracking: Thurman-120 Rucker Lane-Cover White

